<html>
<title> - THE UNITED STATES AS AN ARCTIC NATION: OPPORTUNITIES IN THE HIGH NORTH</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 THE UNITED STATES AS AN ARCTIC NATION: OPPORTUNITIES IN THE HIGH NORTH

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-235

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S NOT AVAILALE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
  
                   U.S. GOVERNMENT PUBLISHING OFFICE 

91-844 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                               
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Admiral Robert Papp, Jr., USCG, Retired, U.S. Special 
  Representative for the Arctic, U.S. Department of State........     5
Scott Borgerson, Ph.D., chief executive officer, Cargo Metrics 
  Technologies...................................................    32
Mr. Andrew Holland, senior fellow for energy and climate, 
  American Security Project......................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Admiral Robert Papp, Jr., USCG, Retired: Prepared statement......     9
Mr. Andrew Holland: Prepared statement...........................    37

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Statement of the Honorable Don 
  Young, a Representative in Congress from the State of Alaska...    60
The Honorable Steve Stockman, a Representative in Congress from 
  the State of Texas: Material submitted for the record..........    63

 
 THE UNITED STATES AS AN ARCTIC NATION: OPPORTUNITIES IN THE HIGH NORTH

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. All right. The subcommittee is called to 
order and even though this will be the final Europe, Eurasia, 
and Emerging Threats Subcommittee hearing for the 113th 
Congress, we will be discussing an important topic--the Arctic 
and the opportunities for America as an Arctic nation.
    In 2009, the House Foreign Affairs Committee held a hearing 
on the High North, which approached the Arctic through which, 
of course, what has been happening since then as people have 
been only seeing this through the lens of global warming.
    While we all recognize that there is receding ice, the 
purpose of this hearing is not to debate science. Rather, what 
is taking place is part of a natural cycle as happens--as 
happened so many times in the past in the Earth's history, or 
it can be traced to humankind's use of CO2-producing internal 
combustion engines.
    The fact--whatever it is, the fact remains that the Arctic 
is more accessible now than it has been in decades and Arctic 
policy should not be just reduced to one particular issue, 
especially a disagreement on why the climate is changing.
    I am honored that today's subcommittee hearing will be the 
first time Admiral Robert Papp testifies in his new role as the 
U.S. Special Representative for the Arctic, and I thank you for 
being with us today and look forward to hearing your testimony 
and being able to get some of the strategy that you are going 
to be laying down and some of your perceptions of which way we 
should go.
    As the Arctic geography has changed, new opportunities have 
emerged and those are the opportunities to access deposits of 
oil, natural gas and other minerals. Additionally, Arctic sea 
lanes have become passable for increasingly longer periods of 
time during the summer months, cutting around 4,000 miles off 
the distance required to sail between Asia and Europe.
    A version of the long-sought Northwest Passage may be 
materializing right before our eyes. The increased activity has 
challenged the governments of Arctic nations to effectively 
govern the High North, build new infrastructure and expand 
capabilities to operate in such harsh conditions.
    To help realize some of these new opportunities, the eight 
Arctic countries including the United States created a high-
level diplomatic forum called the Arctic Council.
    In April 2015, it will be America's turn to assume the 
rotating chairmanship of this council for 2 years. This will 
give our Government the ability to set an agenda. Just in time, 
Admiral.
    Today, the subcommittee will hear key details about what 
will be on that agenda, how to prioritize and what priorities 
we should have, which ones will serve our national interest and 
promote responsible development.
    Let me just note that there are 50,000 Americans who live 
in the Arctic. But this is much more than just a local issue 
for Alaskans. The vast resources of the Arctic can and should 
be wisely promoted and used to increase our prosperity and the 
well being of our people.
    If the Arctic nations can do this successfully, so can we. 
Our Government's role is to ensure private industry follows the 
rules and uses good practices but not to block progress.
    We should all be mindful that other Arctic nations are 
seeking ways to use the Arctic for their own advantage. Chinese 
scholars, for example, have taken to calling China a near-
Arctic state.
    Chinese military officials have commented that China has an 
indispensable role to play in the Arctic. Well, if we don't put 
in place effective policies for the Arctic and then follow 
through on those policies, we know who is waiting in the wings 
to fill the void.
    We also cannot ignore Russia's prominent role in the 
Arctic, and while the Russian relationship with the Trans-
Atlantic community is at its lowest point since I was elected 
to Congress--since 1989--we should not ignore the possibility 
of a productive relationship with Russia in this polar region.
    Perhaps--let me put it this way--we can cooperate with 
people like this even though we have disagreements with them 
and maybe by cooperating in those areas maybe we can overcome 
some of those other challenges.
    Lastly, I want to hold this hearing now to let our friends 
and allies in the Arctic Council know that their cooperation 
and their collaboration on key projects is being noticed and 
appreciated on Capitol Hill.
    It was also important to hold this hearing before the U.S. 
chairmanship began to take place to lay down some clear 
benchmarks and some of the metrics that we can use to judge 
whether or not your chairmanship and our leadership is actually 
accomplishing the goals we wanted to accomplish.
    So I thank all the witnesses for being with us today. We 
will have two panels--the first, as I say, with Special 
Representative Papp, and the second panel of private experts. 
Without objection, all members will have until the end of this 
week to submit additional written questions or extraneous 
material for the record.
    And I now would like to have Mr. Keating, our ranking 
member, give his opening remarks.
    Mr. Keating. Well, thank you, Mr. Chairman, and thank you 
for having this meeting, the last one of our--of the year and 
it is been a pleasure working with you during this period and 
it is very thoughtful of you to have this meeting at this time, 
talking about the North Pole area at a time of year when so 
many millions of children are anxiously awaiting this.
    Now, I must concede that there is an element of skepticism 
about this, but as you said you are not a person that believes 
in scientific evidence. So anything is possible.
    Mr. Rohrabacher. That is good.
    Mr. Keating. And for the benefit of my staff, that was not 
written in my notes. And Admiral Papp, it is been a pleasure 
working with you as I have on Coast Guard issues.
    I have so many Coast Guard stations in my district and 
thank you for your service there and thank you for sharing your 
first opportunity to testify before Congress in your new 
capacity. It is an honor to have you here today.
    Across the Arctic, many challenges are faced by those 
living and working in the North. These challenges include 
higher living costs, skilled labor shortages, the ramifications 
of climate change and other black carbon phenomena and harsher 
weather conditions, to name just a few.
    Yet, in these challenges lie immense opportunities to 
coordinate efforts, increase outreach and to make potentially 
life-altering scientific discoveries. It is these common 
challenges and experience that demonstrate why the Arctic 
Council is necessary and why your position, Admiral, will be so 
critical as the United States prepares to chair the council.
    By bringing together the eight countries bordering the 
Arctic, various stakeholders, NGOs and businesses the Arctic 
Council can engage in a dialogue that enables cooperative 
strategies to tackle common problems.
    The Arctic Council can serve as a forum for dialogue even 
as tensions exist in other areas amongst members. That being 
said, I believe that a lack of transparency in certain 
behaviors may also raise questions.
    In this regard, I will be interested in your thoughts on 
how to ensure peaceful cooperation, particularly given the 
recent increase in Russian long-range aviation, i.e., strategic 
bombers, and in over the Arctic and Russia's plans to establish 
a new military command and bases in the Arctic.
    These plans seem to belie Russian assertions that their 
interests are strictly peaceful. There are, of course, a 
plethora of examples of cooperation through the council.
    For example, under Canada's leadership the council 
empowered Northerners with its focus on the indigenous 
population of the North, their traditions and their knowledge.
    Canada's promotion of the Arctic Council is something that 
can move this region forward while also maintaining the unique 
landscape and the environment.
    Sweden and the U.S. are also working together on a 
partnership on Arctic resilience and the effect of changing 
ecosystems and as this is occurring, the U.S. continues to 
partner with Finland, Iceland, Denmark, Norway and Russia and 
other members to coordinate on search and rescue efforts, 
monitoring vessel traffic, oil pollution preparedness and, of 
course, integral climate change initiatives.
    As these operations move forward through the council, the 
North will inevitably be more interconnected and we can learn 
from each other, particularly as the U.S. Coast Guard prepares 
to visit countries like Finland in March to examine Arctic 
acquisitions and bring back the knowledge to the U.S.
    Finally, Mr. Chairman, Admiral Papp, I would like to thank 
you for including climate change in the U.S. national Arctic 
strategy as well as for the U.S. chairmanships of the Arctic 
Council.
    It is a huge step for us and one that I know has been 
recognized by proponents of the environment worldwide and for 
that I thank Secretary Kerry and I thank you, Admiral Papp. I 
yield back.
    Mr. Rohrabacher. Thank you very much, and we also have with 
us Congressman Larsen from Washington and if you would like to 
make an opening statement, feel free.
    Mr. Larsen. Thank you, Mr. Chairman and Ranking Member, and 
I appreciate the opportunity to be here and to be waived on for 
a brief time onto the subcommittee in order to participate in 
today's hearing.
    I really do appreciate that, and I will be--I will be 
brief. My colleague, Don Young, and I created the U.S. 
Congressional Working Group on the Arctic a few months back, 
sort of bring some attention, highlight some of the issues that 
we see in the Arctic that are important and important for U.S. 
policy.
    A lot of times, the Arctic is seen as out of sight and out 
of mind to many. But for we in the Northwest it is certainly 
part of kind of the everyday economy, probably more so for my 
colleague, Mr. Young, from Alaska, but my district in the Puget 
Sound as a whole tends to be the winter home for a lot of 
people who are--have activities and employment in Alaska over 
the spring, summer and fall, including the major fishing 
industry fleet headquartered in--basically in the Seattle-Puget 
Sound area as well as a lot of the shipyards doing work in the 
Puget Sound supporting that activity and as well with the 
potential of leases--oil and gas leases in the U.S. portion of 
the Arctic.
    A lot of those companies are looking to Puget Sound to be 
their winter home for maintenance and repair. But there are 
other issues.
    It is not just economic--there are environmental issues, 
national security issues as well as the concerns and rights of 
native peoples that are to be on the U.S. agenda for Admiral 
Papp as the Arctic Council gets together.
    I got involved with this in part because my district is 
the--either the first or second closest to Alaska in Washington 
State, up there in the northwest corner of the Lower 48, but 
also being the--on the Coast Guard Committee and working with 
Admiral Papp and his predecessors on the icebreaker issue 
introduced me to these broader issues in the Arctic.
    So I have got a real strong interest in what occurs there, 
and I won't speak on behalf of Congressman Young, who was here 
before votes, but I do appreciate his willingness to allow 
somebody who is not from Alaska to be interested in the Arctic.
    Our Alaskan friends are very protective of what happens 
there and we want to be supportive of that. So thank you very 
much. I appreciate it.
    Mr. Rohrabacher. Thank you.
    Admiral Robert Papp is the State Department's first Special 
Representative for the Arctic, having been appointed in July of 
this year by Secretary Kerry. Before his current position, he 
was the 24th Commandant of the Coast Guard, the good guy branch 
of the services.
    We Californians, we all love the Coast Guard and especially 
the surfers love the Coast Guard. He has held numerous 
important positions while serving our nation, including 
commanding four different Coast Guard ships.
    He is a graduate of the Coast Guard Academy and holds 
advanced degrees including from the Naval War College. Admiral, 
you may proceed with your statement.
    We would hope that you could summarize in a 5-minute 
summary for us and then we will have questions for you, and you 
may proceed.

  STATEMENT OF ADMIRAL ROBERT PAPP, JR., USCG, RETIRED, U.S. 
SPECIAL REPRESENTATIVE FOR THE ARCTIC, U.S. DEPARTMENT OF STATE

    Admiral Papp. Thank you, Mr. Chairman, and Mr. Keating, 
good to see you, and Mr. Larsen, good to see you again, as 
always, and thanks for having me here this afternoon to speak a 
little bit about the Arctic. I really appreciate the 
opportunity.
    When I heard that the theme was to be the United States as 
an Arctic nation, I was very pleased because the importance and 
recognition of that concept could not be more timely for all of 
us.
    As you mentioned, there are only eight nations in the world 
whose territory above the Arctic Circle gives them the right to 
claim being an Arctic nation.
    The United States is one, although it has been my 
experience that Americans do not embrace or fully understand 
the concept of being an Arctic nation and that is unlike what I 
have observed in the other seven Arctic countries. We hope 
through our chairmanship to be able to raise the awareness for 
all Americans.
    The story of the Arctic is defined by intense and arduous 
relationships between humans and the environment. Arctic 
residents, including more than 50,000 of our fellow U.S. 
citizens, know not just how to survive but also how to thrive 
in the harshest of conditions on the Earth. Theirs is a story 
of continuous adaptation and survival.
    Today, however, the harsh and challenging environment is 
transforming at an unparalleled rate. Average seasonal 
temperatures in the Arctic are rising twice as fast as the rest 
of the world, and though the region seems remote to most 
Americans, last month we watched as the entire country 
experienced abnormal weather, the result of a storm that passed 
through the Bering Sea, creating that weather phenomenon which 
we have known to be called the polar vortex.
    And this is just one illustration of how things happening 
in the Arctic are not only impacting the rest of the United 
States but the rest of the world. Melting glaciers and land-
based ice sheets are contributing to rising sea levels and 
threatening some of our coastlines and cities.
    The future of America is inextricably linked to the future 
of the Arctic and will undoubtedly include increasing maritime 
commerce, exploration and management of resources.
    In line with the President's commitment to elevate Arctic 
issues in our nation's foreign policy, Secretary Kerry 
appointed me in July to serve as the country's first Special 
Representative for the Arctic and I gratefully accepted that 
responsibility and welcomed the opportunity to advance the 
Arctic discussion in our Government and with American citizens.
    The Arctic Council chairmanship agenda is an important part 
of that discussion and it will provide the international stage 
upon which we can promote our priorities.
    But there are many other issues at play, some on the world 
stage as we navigate our relationships with countries like 
Russia and China, and others that will require domestic action 
at home.
    As the former commandant of the Coast Guard, I have 
extensive experience working in northern waters, especially in 
Alaska where I began my Coast Guard career as a young ensign 
assigned to a cutter home ported in Adak in the Aleutian 
Islands.
    During that assignment, I crossed the Arctic Circle for the 
first time almost 40 years ago. Later, I toured Alaska 
extensively during each of my 4 years as commandant.
    In my new role as Special Representative, I have already 
been to Alaska twice to see and hear first hand from the people 
living in our rapidly changing Arctic region.
    Now, while I am a sailor and not a scientist, over the 
course of my lifetime I have observed firsthand the dramatic 
changes that are taking place in this incredible region. While 
the natural environment is changing at an accelerated pace, the 
geopolitical situation is changing quickly as well and must be 
taken into account.
    Russia's continued violations of Ukraine's sovereignty are 
an affront to a rules-based international system. The United 
States has joined the international community, including the 
other Arctic nations, in opposing these violations and imposing 
costs on Russia for its actions.
    Nevertheless, the Arctic has been a zone of cooperation and 
free of conflict. We will continue to work with Russia on 
global issues related to the Arctic through our multilateral 
engagement at the Arctic Council.
    We remain cognizant of how changes in the Arctic have 
created significant challenges and opportunities for every 
Arctic nation. The warming climate threatens traditional ways 
of life for indigenous peoples and wildlife but it also opens 
up new opportunities for maritime trade and prosperity, new 
shipping routes, increased oil and gas exploration and tourism, 
to name a few.
    The challenge of charting a course toward a sustainable 
future in the Arctic is important to all of us. The State 
Department is committed to working within our abilities to 
improve the future of this region.
    The Arctic is quickly becoming a global cornerstone for 
scientific and academic research, trade and tourism. Four 
million people live in--across a region that crosses 24 time 
zones. Some areas are incredibly developed while parts of our 
own American Arctic are struggling to provide the basic 
necessities like clean water and affordable energy.
    The United States will have the opportunity to address some 
of these Arctic challenges as we take over chair of the Arctic 
Council this April.
    Considering my appointment began in late July, my first 
months on the job have been spent getting out and talking to a 
wide range of constituent groups, both domestically and 
internationally, while making preparations for a chairmanship 
agenda that will generate forward-leaning actionable goals and 
quantifiable results.
    Our leadership at the Arctic Council will focus on three 
primary initiatives--first, Arctic Ocean safety, security and 
stewardship; second, improving the economic and living 
conditions of the people of the North; and third, addressing 
the impacts of climate change.
    We are currently discussing our proposed program with the 
Arctic states and the permanent participants who represent the 
indigenous groups, and we hope to have their full support prior 
to our chairmanship. Our themes reflect some of the most 
important issues in the region.
    Arctic Ocean's accessibility is increasing and a maritime 
nation's first responsibility is to ensure that any activity 
taking place off its shores is safe, secure and environmentally 
responsible.
    To do so requires a delicate balance but affords secure and 
sustainable sources of food, energy and commerce for 
generations to come.
    For many Americans residing in the Arctic, their 
communities are remote and their quality of life is dependent 
upon Northern economic activity. The cost of living is high and 
not only is it difficult to find employment but it is a 
challenge to obtain the basic necessities we as people need to 
survive.
    As part of our chairmanship, we aim to focus on improving 
local access to sources of clean water and renewable energy to 
address some of these vital needs.
    We also hope to utilize public-private partnerships as a 
tool to help these remote communities throughout the Arctic 
region to make advancements to improve their day-to-day lives.
    And, of course, we must focus on some effort in the 
regional impacts of climate change and continue the council's 
work to mitigate black carbon and methane emissions.
    As an Arctic nation and a global leader, we have an 
obligation to use our diplomatic, economic and scientific 
resources to help those in the region find ways to adapt to a 
changing Arctic.
    We must set the bar high and pursue ambitious domestic and 
foreign policy agendas to address these challenges and 
opportunities.
    I have no doubt about America's ability to embrace the 
responsibility and succeed, and I welcome the efforts of our 
partners including Alaska natives, students, academia, private 
industry, state and local governments as we focus all of our 
energy on this critical global issue including the recognition 
that the United States is and always will be an Arctic nation.
    So I thank you for interest in the Arctic and I look 
forward to answering your questions.
    [The prepared statement of Admiral Papp follows:]
    
    
  
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for that testimony. We 
have been joined, of course, by Don Young, one of our more 
famous Members of Congress for his knowledge of that part of 
the world and I kid you not, I have heard about him--I was 
elected 26 years ago and I heard about him even then.
    Don, if you have an opening statement feel free to join us. 
We are also joined by Steve Stockman. If you have a opening 
statement please feel free and then we will proceed with 
questioning.
    Mr. Young. Mr. Chairman, I thank you. I have a written 
statement I will submit for the record, without objection.
    Mr. Rohrabacher. Without objection, so ordered.
    Mr. Young. Just an off the cuff type thing, and I am one of 
the few people that really lives in the Arctic, eight miles 
above the Arctic Circle, and my interest in this is, of course, 
the lack of exposure of the Arctic to the Lower 48 and where we 
are going.
    And Admiral, I compliment you for your role but keep in 
mind we just finished, I believe, 6 years with another chairman 
from another country, and not much happened. That concerns me.
    In your testimony you bring up some very valid points and 
we will discuss those in the questioning part of it. But Mr. 
Chairman, I thank you for your interest and, of course, my good 
friend from Washington is here and understands my interest and 
he and I together are working on, hopefully, some solutions to 
some of those challenges we are faced with.
    So, Mr. Chairman, I will submit this for the record and I 
yield back the balance of my time.
    Mr. Rohrabacher. All right. And Mr. Stockman, do you have 
an opening statement or a few thoughts?
    Mr. Stockman. I will just quickly state that I think this 
is a very important area in which, as you know, could cause 
confrontation among many countries and the observations you 
made are important and I think that United States needs to be, 
I think, more aggressive in its posture. Thank you.
    Mr. Rohrabacher. Thank you very much, and thank you for 
joining us. We appreciate Mr. Young and Mr. Larsen who, 
obviously, have taken a very serious interest in this issue.
    We have--what I am planning to do as chairman I will move 
forward and let Mr. Keating, our ranking member, ask his 
questions first. I will then go and then we will proceed with 
our fellow colleagues.
    Mr. Keating. Thank you, Mr. Chairman.
    Admiral Papp, I would be interested to hear your thoughts 
on Russia's increased use of bombers in and over the Arctic as 
well as their new Arctic military command, which I alluded to 
in my opening remarks.
    Since the Arctic Council does not deal with political 
military affairs, how will the U.S. be prepared to address the 
lack of Russian transparency in the Arctic and as well as the 
impact on the cooperation on the Arctic Council, and should 
NATO be lending more situational awareness to the region as 
well, particularly since much of the Arctic is under NATO's 
area of responsibility?
    Admiral Papp. Thank you, Mr. Keating. That is a pretty 
broad topic and I would start off with the over flights.
    You know, first and foremost, those are strategic movements 
and physical statements by Russia that can be interpreted a 
number of ways, and I would leave it up to my colleagues in the 
Defense Department to give probably a better assessment on 
that.
    I do get regular intelligence briefings and I have been 
doing readings on all the articles I can that we get in the 
open press on activities along Russia's northern border.
    I think the construction that they have going on and their 
focus is partially a reflection of the fact that they have got 
about 4,000 miles of coastline that is opening up now, and they 
are stepping out smartly in terms of adding ports, search and 
rescue facilities.
    Some of these are referred to as dual-use facilities, both 
civilian and military. I suspect if we were to build a Coast 
Guard base in Barrow other people could point at us and say 
that we are building dual-use facilities as well.
    But I have been impressed with what I have seen so far in 
terms of their investment along that northern sea route, and 
rightly so, because they are going to have a significant 
increase of traffic there.
    So I think a lot of the activities are to be expected. We 
look at some of them with some skepticism but, on the other 
hand, they are right in terms of building facilities so they 
can provide for search and rescue, pollution response and other 
things that could happen along that northern coast.
    As far as NATO goes, NATO's responsibilities does not stop 
at the Arctic Circle. It includes the Arctic as well. I think 
that the European Command and our NATO commander all take this 
into account.
    There are plenty of venues, whether it is the Arctic Chiefs 
of Defense and other things that are looking at the military 
security side of the equation.
    I think the good thing about the Arctic Council is right 
from its start nearly 20 years ago we have put defense issues--
military security issues--off the table so that we can keep the 
discourse going between the eight countries and I think that 
that will continue under our chairmanship.
    Mr. Keating. Another follow-up to my opening remarks, in 
regard to the U.S. chairmanship's priorities, as you know, 
permafrost on the Arctic tundra contains twice as much carbon 
as currently exists in the atmosphere.
    Over time, the thawing of this permafrost could lead to an 
increase in annual emissions equal to the current annual 
emissions of a major emitter such as China or the United 
States. This could greatly complicate international efforts to 
curb climate change.
    You have lived in the Arctic and have been up there, as you 
mentioned. Could you explain in your own words what evidence of 
the changing climate you have seen during that time as chair of 
the Arctic Council?
    How does the United States plan to educate the public about 
our interest in the Arctic including the imperative to address 
this kind of climate change as well?
    Admiral Papp. As I said, Mr. Keating, I am not a scientist. 
I am a sailor who has been in the Arctic and I made 
observations. They started 40 years ago.
    Forty years ago, the ship that I was on got beset in the 
ice in the Bering Strait in July 1976 trying to make it to 
Kotzebue, I flew by helicopter into Kotzebue and, descending, 
there was ice as far as I could see.
    I went back to Kotzebue 34 years later as commandant, 
flying in the same time of the year, and as far as I could see 
from thousands of feet in the airplane I could see no ice. And 
I went back and looked--it was not an anomaly in 1976 to have 
that much ice and it is not an anomaly now to have no ice.
    So there has been some drastic changes. But there are other 
things as well. I have taken time to speak to the elders in 
Barrow who talk about ice cellars where they have stored their 
whale meat for centuries that they have dug down hundreds of 
feet into the permafrost.
    Those ice cellars are now filling up with water. They have 
never seen it before. My most recent visit to Barrow their 
utility system was almost breached this year.
    There is a tunnel that runs for about four or five miles 
under the city and the pumping station was relatively close to 
the shore.
    Now it is over the shore because the permafrost is thawing 
and the seas that are not buffered by shore ice now ate away at 
the cliffs, the permafrost fell into the sea and their pumping 
station was almost breached by the seas, and they have been 
working feverishly up there to replace the shoreline.
    So these are very visible things. It doesn't take a 
scientist to figure out things are changing and we have some 
very rudimentary things in basic food, water, shelter issues 
that need to be taken care of within our American Arctic.
    Mr. Keating. And these areas you think the council can work 
on in a collaborative--the effects of it--is that going to be 
the focus more than the science of it?
    Admiral Papp. Yes, sir. Now, the experiences around the 
Arctic are quite different. You know, the conditions that you 
find in Scandinavia, which has had open water for centuries and 
is much more developed and sophisticated, there is a difference 
from some of the challenges that we are facing.
    We are literally centuries behind on our North Slope in 
some circumstances because the water was never open before. We 
never worried about it. The debate over climate change, in my 
mind, is a moot point.
    It has changed, and we would not be here talking about all 
this if the climate had not changed. So there is going to be 
increased human activity, whether it is maritime or on the 
shore, and infrastructure--governmental functions have not 
caught up with where we are right now in terms of humankind 
starting to come to the area.
    Mr. Keating. It sounds that some of the experiences of the 
other participating countries could be beneficial to us where 
the changes might be more pronounced, learning from their 
experience.
    Admiral Papp. And that is where we are very helpful. Yes, 
sir. For instance, in Scandinavia it is a very rocky shoreline. 
They don't have to deal with permafrost, but some places, 
particularly Canada and the United States and in certain 
circumstances Greenland--the Danish portion of our Arctic 
Council--have less development and increasing activities now 
and different geography.
    Mr. Keating. Yes. I recently had a tour of the latest asset 
we have with the National Science Foundation, and I can't 
pronounce the name of the ship--you are probably familiar with 
it--but I think it will be a great resource as well because it 
will give us more opportunities for actual mobile assessment on 
the site. Are you familiar----
    Admiral Papp. It will be for research, yes, sir. But in 
terms of accessibility, I am sure we will get into an 
icebreaker topic here at some point. But while we always 
welcome those assets from the government, it doesn't replace a 
heavy icebreaker.
    Mr. Keating. Well, thank you. I yield back, Mr. Chair.
    Mr. Rohrabacher. Thank you very much.
    Just--I would suggest that we must struggle as hard as we 
can to make sure that the Arctic is an area that reflects 
cooperation rather than military confrontation, and it is 
always easy for us to try to be fearful and I think if there is 
one place that we can actually reach out and demonstrate where 
people can work together, even if there are some other conflict 
areas in the rest of the world, it is the Arctic, and 
especially with people from Russia who, I think, share some 
basic, how do you say, goals in their country maybe for the 
Arctic as well.
    Let me note that when you were talking about the icebreaker 
in 1976, was it, that was caught in the ice, at that time all 
the scientists were telling us it was global cooling and they 
used that as an example of why they believed that we were 
entering this era of global cooling and, obviously, now the 
scientists are saying the opposite.
    But what we do know is that what you described is there is 
a change going on, and do you know, Admiral, is there a history 
at all--I understand that at a time when the Vikings were there 
that there was this similar changes and openings and then they 
were frozen out. Is that right?
    Admiral Papp. I am not sure about the Vikings. I have done 
a little bit of reading about Alaska and if you go back about 
10,000 years ago, of course, there was a bridge that went 
between--the scientists believed there was a bridge that went 
between Siberia and what is now Alaska and that is how the 
current natives who migrated over thousands of years, actually 
entered into Alaska and then down the Western coast of North 
America.
    So things go in cycles and we tend to see things in a short 
term but----
    Mr. Rohrabacher. Ask Congressman Young about that because 
he knows all about bridges.
    Mr. Young. It went somewhere.
    Mr. Rohrabacher. With that said, what do you--let me tell 
you, one of the concerns that I have is that when we have not 
defined actually what we want out of the--out of the Arctic and 
out of that region of the world, that instead we may leave a 
void and not just when I am saying the Chinese that I mentioned 
earlier on who want a share but other powers that may want a 
share of the authority to control what events are going there--
may try to come up with schemes that would deny the United 
States and those eight countries that you are talking about the 
ability to keep control of the situation.
    I think it is in the interest of the United States to 
develop a plan that will--that will define authority so that we 
maintain a higher level of authority and other of those Arctic 
states--a higher level of authority than, for example, if we 
would turn this over to an international body like the United 
Nations, which might be susceptible to countries like China 
that have, we know, bribed foreign officials and get votes.
    Is your--what is your reaction to the idea of trying to 
maintain authority rather than going to a total international 
authority in the Arctic?
    Admiral Papp. I believe that all eight nations within the 
Arctic Council are firm in maintaining their sovereignty over 
their portions of the Arctic.
    There are many stories about land grabs and people trying 
to compete for space up there but the reality is the boundaries 
are fairly well defined.
    There are a couple little disputes here and there and, 
certainly, as we progress--as the other seven nations progress 
under the Law of the Sea Convention to outline their extended 
Continental Shelf claims, those other remaining issues will 
resolve as well.
    You know, one area that we are concerned about is the high 
seas portion of the Arctic Ocean, which right now is frozen but 
at some point in time will be at least open during certain 
portions of the year and as the waters warm, if what the 
scientists are saying is correct, there will be species of fish 
that will begin migrating.
    So one of the things that we are working on within the 
Arctic Council is to come up with some sort of either 
nonbinding or binding agreement on a fisheries council program 
based on science that would regulate that high seas portion and 
allow us to control who goes in there and conducts fishing in 
the future.
    Now is the time to start working on something like that 
before people get up there on the high seas portion and start 
exploiting those resources and the council gives us that 
opportunity.
    And you made the comment about cooperating with others. My 
experience is that while there are some strategic movements 
that Russia is conducting and we are rightly concerned about 
those things, at the tactical and operational level there has 
been great cooperation and we have worked well.
    The Coast Guard in the 17th District in Alaska works very 
well with the Russian Border Guard--their counterparts--and 
within the council we have a good working relationship.
    I went to the Arctic Circle event in Reykjavik, Iceland 
just a couple of weeks ago. I had a one on one bilateral 
meeting with Artur Chilingarov, who is Russia's Special 
Representative for the Arctic, and I have an upcoming trip to 
the Scandinavian countries and we are including a trip to 
Moscow as well to talk with our counterparts there.
    So we are intent on keeping these lines of communication 
open because it is important for the safety and security of the 
Arctic region and to maintain its condition.
    Mr. Rohrabacher. Thank you very much, Admiral, and Mr. 
Larsen, would you like to proceed?
    Mr. Larsen. Thank you, Mr. Chairman.
    I just want to say nothing forced the Vikings out. They 
left of their own accord because that is how--that is how we 
Vikings are.
    Admiral Papp, in May the GAO issued a report that the U.S. 
had not prioritized its commitments to the Arctic Council and 
it lacked sort of an organizational head. Also, the report 
stated the State Department had only two employees at the time 
working on Arctic policy full time.
    Can you update us on what the administration has done to 
respond to GAO findings--these GAO findings?
    Admiral Papp. Well, first and foremost, we have appointed a 
Special Representative and the Secretary has given me broad 
responsibility to manage the Arctic portfolio--the large Arctic 
portfolio across the State Department.
    I was a little concerned when I first came in about the 
same issues in staffing, and I think back at that point what 
they were talking about is our Senior Arctic Official and the 
one person that was working with her.
    There were always plans to expand that staff in preparation 
for the Arctic Council. There are probably at least a dozen 
people, depending on how you count them, that are associated 
with that right now, not even including myself. I have a staff 
of four.
    The Arctic Council is part of my portfolio, and as you look 
across the State Department, part of my job has been 
inventorying all those people across the regional and 
functional bureaus who deal with the Arctic and coming up with 
a matrixed organization.
    And I say when you do that we probably have closer to about 
two dozen people within the State Department that actually have 
Arctic responsibilities and that we can call on from time to 
time.
    In terms of prioritization of program, it is prioritized 
now, certainly. The first thing that I was tasked with when 
coming in was to review our program, and I was very pleased to 
find out that there was an awful lot of work that was done and 
it may not have been prioritized but there were a lot of issues 
out there.
    What we needed to do was lump them into these categories 
and what I wanted to do was have those categories relate back 
to the National Arctic Strategy and that Strategy's 
Implementation Plan.
    Clearly, the Arctic Ocean's safety, security and 
stewardship is linked back to activities that are in the 
Implementation Plan that the National Security Council put out, 
as are many of the other things in the other two categories.
    So the first process was to prioritize and organize those. 
Then we had to do listening sessions so we had input of the 
people that will be affected by it, both internationally and 
within Alaska.
    We took two trips up to Alaska to do our listening sessions 
and then made our presentations to various NGOs and other 
interest groups in preparation for the Senior Arctic Officials 
meeting in Yellowknife, Canada, which occurred about a month 
ago, for our initial presentation of our program.
    That is being negotiated right now. The Arctic Council 
operates on a consensus basis so we have to work our program. 
Our initial reports are wow, that is pretty aggressive--that is 
a lot to do--and the primary feedback I got from most people I 
spoke with was they thought we were being too aggressive.
    When I took it to Secretary Kerry, he wanted to know could 
we do more. So we probably hit the sweet spot in terms of 
balance and I think we have a very good, aggressive program, 
which is operationalizing some of the agreements that have been 
done in the past like search and rescue and marine pollution 
prevention response, and I am very pleased with where we are 
right now.
    Mr. Larsen. So the committee staff supplied the org chart 
for the Arctic Council and it includes a list of observer 
countries, and the EU has applied. I know Singapore is 
interested or actually is an observer country. Mongolia, 
Switzerland--a lot of folks getting interested in the Arctic 
Council.
    Does the administration have a thought or feeling--an 
assessment about the growth of observer states at the Arctic 
Council and their impact?
    Admiral Papp. I think we believe that the more countries 
that are interested and would like to participate, the better.
    This is--the Arctic, clearly, is the responsibility of 
those eight Arctic nations but the Arctic has an impact on the 
rest of the world and the rest of the world would probably like 
to use the Arctic, particularly if those shipping lanes free 
up.
    So I think it is our view that the more people who want to 
join the party, participate and have input, the better. If they 
get a better understanding what is going on, that is in our--in 
our interest as well and, by the way, if you would like to 
participate then perhaps those countries can devote resources 
to some of the issues that we would like to do.
    They can come up with some public-private ventures and 
other things to help us with research projects in the Arctic. 
So we believe it is a good thing.
    Mr. Larsen. Mr. Chairman, could you indulge me one last 
question? It is a yes--I think it might be a yes or no. Can you 
tell--can you give us an assessment about whether the lack of 
U.S. involvement with the Law of the Sea Treaty helps or hurts 
the U.S. in the Arctic?
    Admiral Papp. It hurts us. First and foremost, I would save 
probably hours of discussions if I didn't have to go into every 
bilateral meeting and respond to the first question that is out 
of their mouths on why the United States hasn't acceded to the 
treaty.
    I mean, it gets monotonous that every bilateral meeting 
that I have attended, not just since taking this job but over 
my 4 years as Commandant, when you deal with another country 
they are embarrassed for us because this great nation has not 
acceded to a treaty that nearly every other nation in the world 
has including the other seven Arctic nations.
    Right now, it is not hurting us greatly because we abide by 
most of the provisions. There will be some time in the future, 
I believe, that when we want to affirm our claim on extended 
Continental Shelf we will not have standing.
    I guess if we want to create a navy and enforce it or 
something like that we could. But we are a country that lives 
under the rule of law and I think we should be a part of that 
and it would give us standing and a venue to legitimize our 
claims for extended Continental Shelf as well.
    Mr. Rohrabacher. And we now and are grateful that 
Congressman Young has joined us because, again, let me 
reiterate this man knows more about the natural resources of 
Alaska both fish and furs and----
    Mr. Young. Whales.
    Mr. Rohrabacher [continuing]. Whales, the whole business, 
and during my tenure in office he has been an incredible source 
of information and inspiration. So Congressman Young.
    Mr. Young. Thank you, Mr. Chairman, for those kind words.
    Admiral--and welcome--what is your 50-year vision of the 
Arctic? You will be gone and I will be gone but what do you see 
out of all this council work and meetings and stuff? What do 
you envision in the Arctic?
    Admiral Papp. Well, first of all, good to see you again, 
Mr. Young, and I have benefitted greatly for many years from 
your wisdom and guidance and I am humbled to be here talking 
about the Arctic in front of you because you have much, much, 
much more experience than I do.
    But having said that, I have some experience and, clearly, 
during my tenure as Commandant I put the Arctic strategy as 
part of what I thought was one of the most important things.
    And I did that because as a nation--this is not just as a 
Coast Guardsman or former Coast Guardsman--but as a nation we 
have the opportunity to get out in advance of development.
    The analogy that I have used as I have gone around the 
world and talked to other people or around the country is where 
I live out in Fairfax County. I have owned a home out there for 
25 years and when I first bought the home it was surrounded by 
farms.
    But developers bought up all the farms, started building 
other homes and it takes the government years to catch up in 
terms of roads and infrastructure and schools and other things 
because the government is inherently bureaucratic.
    The Arctic is ripe for development now but it is also a 
pristine environment, which we would like to preserve. We need 
to come to a balance of economic development with preserving 
that beautiful region that we have and----
    Mr. Young. Let me interrupt. How can you preserve something 
that is changing?
    Admiral Papp. Well, I think what you can do is you can 
protect the environmental quality of it.
    Mr. Young. Well, and again, I don't want to get into this 
climate change deal. This whole issue--I am a flatlander.
    I have 57 scientists I think are the best in the world 
including Russian scientists who don't agree this whole thing 
it is changing. Now, how do you preserve something that is 
changing? You do not. You adapt.
    And that is why I am asking you what is your vision? How 
are we going to adapt to the changes in the Arctic, which you 
already said in your testimony.
    Admiral Papp. Mm-hmm.
    Mr. Young. How--what are we going to do in the Arctic to 
adapt to the change?
    Admiral Papp. Well, for the United States, while there are 
a lot of people who would like to self-actualize and come up 
with lofty ideas on things, the reality is we are at the base 
of the pyramid.
    We are concerned right now about food, water and shelter 
issues. It is like Barrow having their utility system at risk. 
It is like those villages that don't have fresh water and 
sewers.
    Mr. Young. Again, Barrow would not exist if it wasn't for 
the white man. It wasn't a permanent town. It exists because we 
discovered gas.
    We invested in infrastructure. They have done so 
themselves, and now we are going to have to adapt because you 
can't--if you don't--you can't preserve something in its 
changes.
    That is why I am asking you. I am interested in what you 
see. We are not going to be able to put firewalls up. We can't 
freeze the ground again. How do we adapt? What is your council 
going to talk about adapting?
    Yes, their conduit was possibly going to get flooded. Yes, 
they have some erosion problems. Yes. So how--what are you 
going to do as the council to help them adapt to what is 
changing? That is what the--I don't want just a bunch of 
meetings.
    What is your plan when you get done with this term of the 
United States and your being in charge of it--what is going to 
be the result and how is it going to affect 50 years down the 
road?
    Admiral Papp. Well, in terms of adapting to what is 
occurring up there, we are looking at projects where we would 
be able to adopt some of the recommendations that have been 
made in the adaptation study that has been done between Sweden 
and the United States, see what things that have come out of 
that study that we might be able to pursue in terms of 
objectives and pursue funding.
    Some of these are going to ultimately come back to domestic 
issues and resource issues and policy issues that the United 
States will need to address.
    We are involved from the State Department side in this 
international body in coming up with cooperation on looking at 
the impacts and seeing what other countries are doing, what 
best practices we might be able to adopt.
    Mr. Young. Okay, which brings me up another question, Mr. 
Chairman. Resource extraction is going to take place. Is that 
correct?
    Admiral Papp. It looks likely it will.
    Mr. Young. Looks likely it will. Now, how does that--is 
that a conflict with the goals of this administration and the 
council on climate change--the extraction of fossil fuels?
    Admiral Papp. No, it is not in conflict at all. Reading the 
National Strategy for the Arctic and the Implementation Plan, 
it calls for sustainable development of the resources of the 
Arctic.
    Mr. Young. Okay. Now, lastly, Mr. Chairman--Admiral, I 
always get a kick out of the permafrost--I have heard that 
term--the permafrost is melting. What is permafrost?
    Admiral Papp. Permafrost is an accumulation of sediment, 
soil, animals, other things that have accumulated there over 
centuries and because of the temperature as----
    Mr. Young. What was it before it froze?
    Admiral Papp. What was it before it froze?
    Mr. Young. Yes.
    Admiral Papp. It would have been probably swamp or----
    Mr. Young. It was soil and it grew those animals and all 
the other things we talk about, and I go back to the concept of 
change.
    What I don't want your council to do is get involved--and I 
know what you talk to the people in Barrow--I represent that 
area--and just the climate change issue itself.
    This is--as you mentioned, 11,000 years ago there was no 
ice in the North Pole. I know that is amazing, you know. The 
ice was all the way--12 million years ago, not 11,000--12 
million years ago there was ice in New Mexico.
    It melted all the way to the North Pole and that was before 
automobiles were around--now, keep that in mind--or mankind of 
any kind. So we don't know what melted it.
    But permafrost is a body of orgasms, if you call it, of 
soil, of--well, it could be orgasms. But then it froze. It 
froze, and I just--I just--you know, I get so concerned that I 
have seen these meetings--and I know the time is up--council 
meetings and everything else and we will talk and we will talk 
and we will talk.
    Because you haven't answered that first question--what is 
your vision where the Arctic is going to be 50 years from now? 
I will give the Coast Guard credit. They do put out some 
shipping channels. They just did that this week, which is good.
    Mr. Rohrabacher. I probably should be asserting a little 
chairmanship authority here, although the conversation is 
getting kind of hot.
    Mr. Young. No, I just--I sit here and I have been through 
this so many years and listened to talk with no goal and 
position.
    Mr. Rohrabacher. Okay. Let us give the admiral 60 seconds 
to answer that question, then Steve Stockman to have his time 
for questions.
    Admiral Papp. The vision I personally would have for 50 
years from now is there will probably be sustainable 
development that will be extracting oil and gas from the 
offshore region, whether it is the extended Continental Shelf 
or closer to shore.
    I would see new connections to the pipeline, probably 
innovations in terms of renewable energy and natural energy for 
the residents of the Arctic and the north part of Alaska. 
Clearly, we are extracting a large percentage of the oil that 
we use in this country from Alaska yet your Alaskans pay the 
highest prices for fuel in the country, and most of them rely 
upon diesel.
    So we need to have some innovative solutions to power for 
people in northern Alaska and I foresee that happening, whether 
it is wind power, thermal, wave generated, hydro power, new 
solutions for power and providing clean water for the people in 
the north.
    There are going to be a lot of people that are interested 
in tourism. In 2016, there is going to be a cruise ship with 
1,200 passengers that is going to leave from our West Coast, go 
around Alaska, making ports of call up there, even though there 
are no ports to pull into--they will run boats ashore. But I 
see an increase in shipping up there.
    There will be a need for permanent bases on the North 
Slope--not just seasonal things that the Coast Guard and other 
agencies do but there will have to be a permanent presence up 
there.
    All these things are going to require investment by our 
country--investment that we have not done yet but is looming 
out there. I talked about how Russia is investing along its 
North Sea route. We are going to have to do very similar 
things.
    Mr. Young. And, Admiral, that was what should have been the 
first answer you gave of what your vision was. You were 
skirting the visions. Well, that last answer was good. So thank 
you.
    Admiral Papp. Yes, sir.
    Mr. Rohrabacher. And Mr. Stockman.
    Mr. Stockman. Some may ask why I am here because I am from 
Houston, Texas, where we do have global warming, around the 
year. They say we have two seasons--waiting for summer and 
summer. It is pretty hot down there at this time of year, even 
now.
    But in my district we have 87 refineries. We produce almost 
half the gasoline in the United States. I have the Port of 
Houston, and so oil and gas is a very, very important commodity 
to our district and what happens around the world impacts 
directly in our district.
    Therefore, I am interested in what you had to say today and 
interested in the dynamics. I was told that the Department of 
Homeland Security was calling for more icebreakers--I think 
three heavy ones, three medium ones.
    Currently, we don't have anywhere near that, and I was 
wondering do you have a vision, as Don was saying, of where we 
are going? Is this administration going to execute what was 
recommended to them in terms of icebreakers? Are you going to 
increase the number of icebreakers?
    I think I was reading in the paper one time where, you 
know, we had to get help from other countries even. There was 
one that was--remember it was frozen and then they kept sending 
other icebreakers and it kept freezing the other icebreakers, 
which is amazing for how they were--that passage was supposed 
to be open but it wasn't.
    Could you address those concerns that the other committees 
here have in reference to the icebreakers?
    Admiral Papp. Yes, sir. My public statements are record on 
that.
    Even though there is a new Commandant who may have a 
different opinion, I don't think his opinion would be too 
varied from what mine has been. But in this job as well, it is 
my opinion that we are woefully inadequate in terms of national 
icebreakers.
    We have only one. Russia, on the other hand--granted, they 
have a much longer coastline but they have got at least a 
dozen, six nuclear-powered heavy icebreakers, and what I would 
say also is a reminder that we are just not focused on the 
Arctic.
    We are a bipolar nation, literally. We also have Antarctic 
responsibilities as well and we have got one icebreaker that 
can probably operate about half the year and then has to go in 
the shipyard because of the rough usage. We do have a medium 
icebreaker, the Healy, that can operate. But that is----
    Mr. Stockman. But that is decommissioned or not, or is 
that--is that operating?
    Admiral Papp. Healy----
    Mr. Stockman. That is a medium one or is that a large?
    Admiral Papp. Healy is a medium icebreaker and is about now 
about 14 years old. It is in pretty good shape and it is used 
primarily for Arctic research. Polar Star is the only heavy 
icebreaker that we have.
    Its sister, Polar Sea, is laid up in mothballs in Seattle, 
and what we have been trying to do is get construction on a 
brand new icebreaker to replace Polar Sea and Polar Star, which 
are approaching 40 years of age each.
    Mr. Stockman. Can I ask you what the goals are and what is 
the impediment to those goals?
    Admiral Papp. It is money. It is new construction. In 
theory, right now it should be within the Coast Guard's budget 
to build those.
    But it was denied for many years and they are involved in 
other projects, and it is like the rest of the Federal 
Government--there is no growth, and a new icebreaker costs 
somewhere between $800 million and $1 billion and it is hard 
for any agency in the government to absorb right now.
    Mr. Stockman. But didn't Canada have--they were buying an 
icebreaker and they bought, like, the plans from another 
country and that saved them a lot of money?
    Admiral Papp. Well, that is not unusual. When our 
shipbuilders in this country--oftentimes what they will do is 
they will buy plans from another country.
    Even Navy ships or Coast Guard cutters, oftentimes they 
will buy a design from another country but then build it in the 
United States. Our laws require us to build it in the United 
States.
    Canada--I think they got their design from Finland, if I am 
not mistaken.
    Mr. Stockman. Right.
    Admiral Papp. Finland is probably the leading country for 
icebreakers.
    Mr. Stockman. But I am saying could we emulate what Canada 
did in order to facilitate--you know, expediting these 
icebreakers I think is pretty important, given that your vision 
of increased activity you would probably want more icebreakers 
and if that is the case and we could save money by buying it 
from Finland, I would think that we should do that.
    So I guess, Mr. Chairman, what he is suggesting is we 
should bring back earmarks. That is my opinion I have. But 
thank you so much for coming down today and I would just 
request that there be something you can tell us to do to 
increase the--make sure that additional icebreakers could 
happen and you can tell us in Congress what we need to do.
    Mr. Rohrabacher. Being from Texas I would be surprised if 
we would earmark those icebreakers. But----
    Mr. Stockman. As long as we had oil getting out of it we 
would be very happy.
    Mr. Rohrabacher. Listen, thank you very much, Admiral. We 
appreciate your testimony. We appreciate your testimony. We 
appreciate your service.
    I am speaking for my ranking members--the other members of 
the committee here--our doors are open to you in your new 
chairmanship. Let us work with you.
    I take this responsibility very seriously because I believe 
that the Arctic area is an area that people have not paid 
attention to the vast potential that could be available to the 
people of the United States and these other countries and, yes, 
the world, if we have the right kind of policies--if we try not 
to be in a conflict there but instead try to find ground rules 
that will actually fit with all the countries and respect each 
other's rights.
    And thank you very much for testifying and we have another 
panel now.
    Admiral Papp. Thank you, Mr. Chairman, for having me here 
today. God bless.
    [Recess.]
    Mr. Rohrabacher. All right. Ladies and gentlemen, we have 
had a fairly lively hearing so far. We have with us two 
witnesses, Dr. Scott Bergerson. How do you--pronounce that for 
me, please.
    Mr. Borgerson. Borgerson.
    Mr. Rohrabacher. Borgerson. Got it. Dr. Scott Borgerson, 
who is the co-founder of an organization called the Arctic 
Circle, a prominent NGO, and he is also the chief executive 
officer of Cargo Metrics Technologies.
    He has previously been a visiting fellow at the Council on 
Foreign Relations and has written numerous scholarly articles 
on the Arctic. He is a former Coast Guard officer. Do they 
allow you to have the beard in the Coast Guard?
    Mr. Borgerson. They did. This is new.
    Mr. Rohrabacher. Isn't that something? Okay. And having 
graduated from the Coast Guard Academy and later he earned his 
Ph.D. from the Fletcher School of Law in diplomacy.
    We also have with us Mr. Andrew Holland. He is a senior 
fellow at the American Security Project. His work focuses on 
energy, infrastructure and the environment. In the past, he has 
held various policy staff positions on both sides of Capitol 
Hill. He is a graduate of Wake Forest University and the 
University of St. Andrews in Scotland.
    Gentlemen, we would like you to, if you could, summarize 
your testimony in about 5 minutes and then be able to go and we 
will have questions for you after that.
    You may submit anything else, of course, for the record. 
You may proceed.

 STATEMENT OF SCOTT BORGERSON, PH.D., CHIEF EXECUTIVE OFFICER, 
                   CARGO METRICS TECHNOLOGIES

    Mr. Borgerson. Thank you, Chairman, and it is a great 
pleasure to be here. I am honored to be invited and I testified 
actually before your committee in 2009, along with Admiral 
Papp.
    So it is great to be back, and I went back to reread my 
testimony in preparation for this today and some things have 
changed and many things haven't, like icebreakers, the Law of 
the Sea, et cetera. I will touch on that in a bit in my 
comments.
    But, really, I am pleased to be back today as a private 
citizen. Thank you for inviting me. I am going to detour from 
my prepared comments to answer the question Congressman Young 
asked Admiral Papp, if I could, about my vision for the Arctic 
in 50 years.
    Mr. Rohrabacher. That is fine.
    Mr. Borgerson. I think there are two answers for that, 
depending on how the United States chooses to invest or not 
invest today, and if you look at the Korean Peninsula you can 
see two very different kinds of policies at a line of 
latitude--one, at night by satellite, is all lit up.
    There is a viable industry there. They build ships--really, 
a vibrant economy in South Korea. And in North Korea there is 
the opposite policies and it is dark at night, and I think when 
you look at the Arctic in 50 years you will see some countries, 
like Russia and Norway, having vibrant bright coastlines with 
vibrant communities and economies and industries because they 
are investing in infrastructure today, and if the United States 
does not you will see something that looks like North Korea 
today from space--what Alaska is today, which is basically open 
wild coastline.
    From Adak to Barrow is the same distance as from about Key 
West to Maine. It is a massive state. Everything is bigger in 
Texas, of course, except for Alaska, which is two and a half 
times the size of the Texas, and there is virtually no 
infrastructure there, and we have to invest in infrastructure 
today.
    So I will summarize my comments very briefly and to, first, 
climate change, just touching at the wave tops; second, 
infrastructure--I think we need to invest there; and lastly, I 
think, some foreign policy opportunities for the United States 
and chairmanship at the Arctic Council.
    First, climate change--5 years ago, when I testified I 
talked about the pace--the rapid pace of sea ice melt then. In 
the 5 years since, every year is a record or a near record.
    In the past 30 years, the Arctic has lost half of its area 
and three-quarters of its volume of sea ice. These are historic 
unprecedented melting of sea ice. It is without debate, as we 
have discussed on this panel.
    I am a big fan of Alaska. My heart is in Alaska. I love the 
state. I am in constant contact with people there including my 
friend, Dan Sullivan, who is now a senator-elect from Alaska, 
and this is one of the warmest Novembers ever there and winter 
is 2 months behind. The rivers have not yet frozen.
    So we have--we can talk about mitigation strategies, and I 
personally believe carbon needs to be priced, whether it is tax 
or cap-and-trade. But separate from the point of this hearing, 
which is about adaptation, the Arctic is melting. The United 
States has to respond because the rest of the country or world 
is.
    Second, infrastructure--so what might we do? I would ask 
you to channel your Lee Kuan Yew, the great Singaporean leader, 
who, when they left Malaysia in 1965 had relatively little 
infrastructure and a small economy, and it is now the 
wealthiest nation in Southeast Asia because of very forward-
looking progressive ideas about how to invest into port, into 
rail, roads, et cetera.
    I wrote an op-ed in The New York Times 10 years ago, the 
first op-ed about the Arctic, saying that it would take 10 
years and $1 billion to build a new icebreaker, and if we 
started today--this was 10 years ago--that we might have one 
when we need it as the Polar Sea and Polar Star are being 
decommissioned.
    As we just heard from our Ambassador, here we are literally 
10 years later with not a nickel appropriated to build a new 
one and this country needs to. It is late.
    We need a deep-water port. We need road, rail and other 
intermodal infrastructure. We need pipelines. We need airports, 
et cetera. I would really encourage the committee to think big 
about Alaska and think big about the Arctic.
    Lastly, we need to be much, much bolder in our approach to 
Arctic foreign policy. I don't think we are being bold enough 
as, as we approach chairmanship of the Arctic Council, starting 
with, before I suggest some new ideas, an old one is get off 
the list of Syria, North Korea and Iran as nonsignatories as 
coastal states the Law of the Sea Convention and join 
officially.
    I know this is the House, not the Senate, which has 
constitutional authority to get advice and consent to treaties, 
but it is embarrassing that we don't--aren't officially party 
to the treaty.
    I think we should create marine preserves in the Arctic. I 
think we should work through the Arctic Council to help protect 
the high seas and maybe perhaps even make all the high seas off 
limits.
    I think we should work with Canada to create a new 
compromise of the Northwest Passage. We have a maritime 
boundary line dispute with Canada there. I think we should 
engage energetically with Russia.
    And, lastly, I see I am about out of time. I am pro-
development. I think this should be done hand in hand with 
development.
    I think there should be a strategic approach to the Arctic 
where we look to invest in infrastructure in the Arctic and 
develop the Arctic with conservation in mind but do so in a 
very progressive forward-looking way that also protects the 
environment.
    Thank you.
    [Mr. Borgerson did not submit a prepared statement.]
    Mr. Rohrabacher. Doctor--Mr. Holland, you may proceed.

 STATEMENT OF MR. ANDREW HOLLAND, SENIOR FELLOW FOR ENERGY AND 
               CLIMATE, AMERICAN SECURITY PROJECT

    Mr. Holland. Thank you, Chairman Rohrabacher, Ranking 
Member Keating and members of the committee for inviting me to 
testify at today's hearing.
    I am going to begin by noting that I cannot claim to be an 
expert on Arctic affairs. Though I have written and spoken 
extensively about it, I have not yet been above the Arctic 
Circle, unlike some of our folks who have spent time on Coast 
Guard cutters or Navy submarines.
    My research at ASP focuses on energy, the environment and 
how they affect America's national security. What that means is 
that I care more about geopolitics than I do about polar bear 
habitats.
    I think my role in today's hearing will be to offer 
perspective as an outsider, someone who understands 
international relations and America's national security needs 
more than I understand the intricacies of how the Arctic 
Council works.
    So to back up--for most of human history, the annual melt 
and refreezing of the Arctic Ocean was a consistent trend that 
kept it closed to all but the most intrepid explorers.
    It was only in 1909 that Admiral Robert Peary's expedition 
became the first to reach the North Pole. In a telegram to then 
President Howard Taft, he said, ``I have the honor to place the 
North Pole at your disposal.'' Taft replied, ``Thanks for your 
interesting and generous offer. I do not know exactly what to 
do with it.''
    As I will explain, I think that American policy to the 
Arctic has not changed that much since Taft. We still do not 
know exactly what to do with it. Today, melting ice is opening 
the Arctic.
    As we heard, the administration has made climate change in 
the Arctic a focus of the U.S. Arctic Council chairmanship, and 
that should certainly be a part of it. The unraveling of the 
Arctic will have huge costs to all of us, but I am concerned 
that U.S. policies must go further in planning for an opening 
Arctic.
    During question and answer time, I am happy to discuss 
commercial Arctic shipping, Arctic cruises, or drilling for 
energy resources. My statement for the record includes 
extensive analysis of these. But I will concentrate my oral 
statement on the geopolitical and military imbalances I see in 
the Arctic.
    At first glance, there is a clear story line here--a gold 
rush leads to a 21st century scramble for the Arctic with 
contested territorial claims, which leads inexorably to 
conflict.
    But that does not fit. The institutions governing the 
Arctic are simply too strong. The U.N. Convention on the Law of 
the Sea and the Arctic Council have legitimacy among Arctic 
nations and cooperation has reigned for decades.
    That does not mean, however, that there is no threat of 
conflict over the Arctic. I contend that the danger, in fact, 
comes from an imbalance of attention and of power. Put simply, 
the United States is weak where others are gaining in strength.
    We are way behind our competitors in planning for an open 
Arctic and this imbalance is most apparent in the military 
power available in the Arctic. As the region warms and the ice 
melts, Arctic nations are constructing new military bases and 
building new ships that can operate in the harsh environment.
    At the same time, countries far from the Arctic, including 
the two most populous nations in the world--China and India--
are scrambling to find new geopolitical advantages in the 
melting ice.
    While countries like Russia see Arctic power as central to 
their national affairs, the United States pays little more than 
lip service to our status as an Arctic power. In nowhere else 
in the world is the U.S. Navy so clearly outclassed in its 
ability to perform surface operations as in the Arctic.
    Russia's Northern Fleet is its largest and most powerful. 
It has conducted extensive exercises in Arctic waters. Russia 
has reopened Cold War-era bases all along their Arctic coast 
and just 2 months ago they opened new radar bases on Wrangel 
Island; that is only 300 miles from the Alaska coast.
    That means that the Russian military would be much closer 
to any drilling operations in American waters than any U.S. 
military or Coast Guard operations.
    Today, neither the Navy nor the Coast Guard have the 
infrastructure, the ships or the political ambition to be able 
to sustain surface operations in the Arctic in a similar manner 
to the Russians.
    Reading the Department of Defense 2013 Arctic strategy you 
come away with the impression that it is a worthy document, but 
there is no budget to back it up. Regardless of why the U.S. 
has failed to act in the Arctic, the result is a missed 
opportunity.
    The U.S. Government, under the leadership of both 
Republican and Democratic administrations, has all but ignored 
the Arctic. So we must do more.
    In the harsh environment of the Arctic a laissez-faire 
approach does not work. Governments must put in place the 
policies, appropriate the funds and give the political 
legitimacy to Arctic development in order to exploit the real 
opportunities that are available up there.
    So far, the United States has, notably, combined only 
tentative policies with very little funding and no high-level 
political visibility.
    So I have a few concrete steps that Congress could quickly 
take in order to exert power in the Arctic. First, and I know 
this is for the other side of the Hill: Ratify U.N. Law of the 
Sea Convention.
    Second, increase funding for U.S. military presence. This 
is about Coast Guards but it is also about port facilities. It 
is also about permanent Coast Guard facilities.
    Third, we need to make a final decision on whether to 
approve and regulate offshore oil drilling. We need to decide 
one way or the other and then get moving on figuring out 
regulations.
    Fourth, elevate Admiral Papp--or his successor's--role to a 
permanent Senate-confirmed Ambassador-level position. Right 
now, he is just a special envoy appointed to the Secretary of 
State. It would be better if he was an Ambassador.
    Other nations have Arctic Ambassadors--all the other Arctic 
nations as well as the Chinese, the Indians, Singapore, others.
    And fifth and finally, raise the Arctic's profile by 
regularly participating in Arctic-focused events. By that I 
mean Members of Congress, not just Representative Young. We 
need to raise its profile, and I know I am over time but I will 
finish up here by saying in the absence of clear statements of 
policy, backed by high-level attention and resources from the 
United States, there is a danger over the long run that other 
countries will misread U.S. intentions about what we perceive 
as our core interest in the Arctic.
    The United States is an Arctic nation but we should start 
acting like one. Thank you, and I look forward to questions.
    [The prepared statement of Mr. Holland follows:]
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much. Mr. Keating, would 
you like to proceed?
    Mr. Keating. Thank you, and thank you for your testimony. I 
do think you addressed some of the unanswered questions we had 
with the admiral.
    I do want to give you the opportunity--I guess, first, 
Scott and if you would like to--you both addressed it but if 
you had some time to go a little further, I am curious.
    Our inability to accede to the Law of the Seas Convention--
what are some of the results of that? If you could detail them 
a little bit more I think that would be helpful. I will give 
you a little more time to do that.
    Mr. Borgerson. I will start. First, I would like to say 
that was fabulous testimony, I thought, from Mr. Holland and I 
agree with every one of his policy recommendations.
    When at the Council on Foreign Relations, I published a 
special report called ``The National Interest and Law of the 
Sea,'' which detailed all the reasons why hurting the 
convention--why not joining the convention hurts specific 
concrete aspects of our national interest.
    This isn't sort of a airy fairy feel-good thing about 
international treaties. This is about national interest, hard 
power. A few examples--one, under the provision Article 76 of 
the convention, without being officially a party you can't 
formally submit your claim to extended Continental Shelf. Not 
only can we not submit our claim, we can't officially have a 
seat at the table to review other claims that are being 
submitted. That is a problem. We literally don't have U.S. 
representation on that committee.
    Second, under Article 234, which has to do with additional 
legal authority to enforce shipping rules and regulations in 
ice-covered waters, that is undermined by not being a party to 
the treaty.
    And then lastly, and it is difficult to sort of quantify, 
but Admiral Papp sort of spoke to it and I feel this also, 
traveling the world talking about the Arctic and interacting 
with other Arctic sovereign heads of state--we have really 
little lessons or a moral authority on Arctic issues.
    The law--we led the writing of the Law of the Sea 
Convention. The world changed the Law of the Sea Convention to 
address President Reagan's problems with it. The rest of the 
world has signed up for the rule book that we follow and yet 
still, as a great maritime nation such as ours, we still can't 
get our act together and join the convention, and it does 
undermine us from a moral and diplomatic point of view in all 
these forums.
    So I would refer you to the book I wrote, ``National 
Interest and Law of the Sea'' for a stimulating read on all the 
sort of other legal details. But I will just end by saying it 
is the one issue in Washington that you can find the oil and 
gas industry, heads of the militaries, environmental NGOs, 
Republicans, Democrats across the aisle agreeing that we should 
join this treaty.
    Mr. Holland. I would just add that the only thing--it is 
about legitimacy and it is about our ability to exert our will 
up there.
    You know, the Russians made headlines last decade in 2007 
by planting a little Russian flag on the sea floor under the 
Arctic and that is a part of their claim to an extended 
Continental Shelf.
    The Canadians have now claimed a similar thing, claiming 
the North Pole. The Danes, through Greenland, have also claimed 
up to the North Pole.
    I don't know whether we could or we would want to or 
anything like that but I would--I would note that when I was 
doing my research for this, Admiral Peary was the first one to 
put a flag up there and it was an American flag.
    Mr. Keating. You know, it is interesting. The chair and 
myself went to Russia and it was prior to the aggression in 
Ukraine and other areas, but we were in Russia and we had 
occasion to meet with Mr. Rogozin, and during that meeting I 
was impressed with how much time he spent talking about their 
plans in oil exploration and as the ice was melting and how 
that, you know, offered all kinds of opportunities.
    So I think it is clear that our country has almost 
adopted--it might be too severe to say--an isolationist policy 
but, clearly, one of not paying attention to the economic 
issues, the--some of the jurisdictional issues that are going 
to come about, some of the environmental issues--you know, oil, 
fishing.
    You could go on and on with what we are--but we are--it is 
clear, and that is why I hope this hearing raises, you know, 
the consciousness around this because we will be dealing with 
this one way or another at a certain period of time, and we can 
deal with it before some of these conflicts occur, before some 
of these opportunities are lost, before our ability to 
influence things diminishes but--or we can wait and all those 
things will occur.
    So I thank you both for your testimony--very important 
points--and I hope we can--hope it raises the level of interest 
in this because it is inevitable that we will be dealing with 
all of these issues.
    Better--we would be better served as a country doing it in 
the front end. Thank you.
    Mr. Borgerson. You are welcome. Thank you.
    Mr. Rohrabacher. Well, let me just ask some specifics here. 
I have heard a lot about the Law of the Sea Treaty here. I was 
not necessarily prepared to discuss the Law of the Sea Treaty 
but would the Law of the Sea Treaty be contradictory then--you 
mentioned--I guess you just mentioned or maybe you just 
mentioned that one country had made a claim--was it Denmark? 
Made the claim all the way to----
    Mr. Holland. To the Pole. The Russians and the Canadians. 
The Canadians are preparing their claim to the Pole.
    Mr. Rohrabacher. Claims--territorial claims that go all the 
way to the Pole in the sort of a pie----
    Mr. Holland. Correct. Yes, like a pie piece.
    Mr. Rohrabacher. Pie piece. So that is one approach that we 
have to setting down a strategy of how to approach who has 
authority and rights and power over those areas in the Arctic 
that we are talking about.
    Is there a conflict between the Law of the Sea Treaty and 
the idea of a territorial claim by individual countries? If we 
claimed them--a pie shape to the Pole--would the treaty then be 
contrary to that?
    Mr. Borgerson. So I will take that. The answer is no, and 
the treaty actually outlines the rules under which the 
adjudication would be made under a organization called the 
Commission on the Limits of the Continental Shelf, which has a 
very technical prescribed set of rules to make that 
determination and----
    Mr. Rohrabacher. Do we at that point rely on the United 
Nations in order to settle disputes then within that context?
    Mr. Borgerson. So maybe, not necessarily. So they can be 
resolved bilaterally in certain circumstances.
    Mr. Rohrabacher. Oh, yes. But if they can't--but if someone 
comes----
    Mr. Borgerson. There is a Law of the Sea Tribunal and----
    Mr. Rohrabacher. Yes, but somebody comes up and they are 
challenging your authority and your rights and, of course, 
there is not going to be someone who says well, I will just 
give in to arbitration. You know, if this person has no rights 
to this particular territory----
    Mr. Borgerson. Right.
    Mr. Rohrabacher [continuing]. We would then be letting the 
United Nations settle that dispute?
    Mr. Borgerson. No. I mean, no different than China's 
allowed the United Nations to solve the Spratly Island dispute 
in the South China Sea or our disagreement with Canada over the 
status of the Northwest Passage or----
    Mr. Rohrabacher. Right.
    Mr. Borgerson [continuing]. Our dispute with Canada on the 
maritime boundary line in the Arctic. Those aren't----
    Mr. Rohrabacher. Of course, in this particular case it is a 
particular pie--you know, the Spratly Islands, of course, are 
200 miles from the Philippines and 800 miles from China and 
maybe China would like the United Nations to settle that 
because they have a tendency to bribe countries in the United 
Nations.
    Mr. Borgerson. I can't speak to Chinese bribery of U.N. 
member states as it relates to the Law of the Sea claims but 
what----
    Mr. Rohrabacher. Well, just remember--let us put it this 
way. If the Law of the Sea Treaty is dependent on the United 
Nations for any type of enforcement, what you have done is you 
have taken authority and put it in the hands of enforcement 
into an institution in which if you look at the membership of 
the United Nations and you look at the General Assembly, you 
realize that over half the nations are governed by crooks or 
lunatics, and we--as people who would never be elected and 
given authority to anything in the United States.
    So if the Law of the Sea Treaty verification would in some 
way put us under an obligation to let the United Nations solve 
disputes, I think that is rather--something I would not be 
supportive of. Let us put it that way.
    The--in terms of this is the warmest--this is the warmest 
winter that Alaska has had, we all--the question as in global 
warming, of course, is who causes this--as whether it is a 
natural phenomena or a manmade phenomena because of CO2 being 
put into the air.
    That is the only real debate going on on that issue. But we 
also should note that this has been the coldest winter in large 
portions of the United States. I mean, it is still the coldest 
winter they have ever had in Wisconsin and Minnesota and those 
places like that.
    So while we note that it is warmed up here, we know it is 
getting colder over here, and we also know that down in the 
Antarctic it seems to be an expansion of ice rather than a 
contraction.
    So these things indicate something about the environment of 
the world that is taking place, and I think it is really--it is 
important that if, indeed, these changes in the world that are 
taking place changes the reality of the Arctic, we need to set 
down policy so that we don't have to worry about giving up 
authority to a international body that may or may not be overly 
influenced by crooks and, frankly, that is, of course, a matter 
of some people have a different philosophy of how we are going 
to have a better world.
    So that--and I--that is just my point of view. With that 
said, I appreciate both of your testimonies today. It has been 
very valuable, and we----
    Mr. Stockman. Mr. Chairman, can I--can I----
    Mr. Rohrabacher. No, you are----
    Mr. Stockman. Oh, okay. Okay.
    Mr. Rohrabacher [continuing]. I am not finished yet. I am 
just going to say that Mr. Stockman has got his chance. Then 
there will be closing statements from the ranking member and 
the chairman.
    Mr. Stockman. I think we may have votes pretty soon too. So 
I thank you for coming out today. I asked--Chairman, may I 
submit for the record articles by Phyllis Schlafly from Eagle 
Forum on this topic?
    Mr. Rohrabacher. So ordered.
    Mr. Stockman. Thank you. I have a question for you. I like 
your ideas on development. However, I am questioning--I mean, 
if I presented this to some of our environmental friends, they 
would have--well, to be blunt, they would be rather upset with 
your position which, by the way, I agree with.
    But how would--how do you address that when you are 
confronted with people who have really strong feelings against 
everything you suggested? They want it to be never touched.
    I mean, actually the policies we are doing now is exactly 
the policies they want, and I agree with you--I think it is a 
tragedy to look forward and to see us, again, like you said, 10 
years down the road and you have such advanced development with 
Russia and other countries and yet we are--excuse me, we are 
kind of stuck in the Ice Age.
    Mr. Rohrabacher. So to speak.
    Mr. Stockman. Yes.
    Mr. Borgerson. The metaphors on this panel are great.
    Mr. Stockman. So how do you address when I come up--I am 
going to come up to you and say, you know, I am angry at you 
for your positions, but I am not.
    Mr. Borgerson. Yes.
    Mr. Stockman. How do you--how would you recommend I address 
that?
    Mr. Borgerson. Okay. I would love to answer that. If I 
could, though, I got to respond to the chairman and say that 
there is not debate on the scientific community about global 
warming.
    I mean, the debate among scientists is over. So I would 
refer you to the Intergovernmental Panel on Climate Change 
and----
    Mr. Rohrabacher. Let me note that that just isn't true. 
There are 3,000----
    Mr. Stockman. Doesn't sound like it is over. It is still 
going on.
    Mr. Rohrabacher. There is 3,000 scientists who have signed 
a petition who--most of whom are Ph.D.s in science that have 
said they disagree with that assessment. But there is a honest 
debate about it, and I could be wrong and other people have 
trouble admitting they could be wrong.
    Mr. Borgerson. So in answering Congressman Stockman, I come 
at it from the point of view of global warming is happening. 
The scientific community, I think, agrees. The ice is melting 
and so there are two ends of the spectrum, right. There is----
    Mr. Stockman. I know, but I am saying that you are making a 
statement about development.
    Mr. Borgerson. Yes.
    Mr. Stockman. I agree with your statement on development. I 
am not going to argue global warming because if you actually go 
through the record of the statements by the global scientists 
every 2 years, including Al Gore said right now that the polar 
bears were not going to have any ice to walk on.
    By the way, if you want to save polar bears stop giving 
hunting licenses to hunters to kill polar bears. We have an 
abundance of polar bears and he predicted they were all going 
to be dead and floating in their Jacuzzis or whatever. I want 
to address the thing on--I don't want to argue over global 
warming.
    Mr. Borgerson. I will answer it.
    Mr. Stockman. I want to--I got someone coming to my office. 
They are going to be screaming at me and I will say oh, I agree 
with this global warming guy who wants development. They go, 
well, that sounds contradictory. That is like jumbo shrimp.
    Mr. Borgerson. So I am a pragmatist--there are jumbo shrimp 
so you can have--you can have both.
    Mr. Stockman. The cocktail size.
    Mr. Borgerson. I am a--I am a pragmatist in the sense that 
the environmental far end of that spectrum that wants to turn 
the Arctic into a park is not going to happen, and it isn't 
happening.
    I mean, the largest zinc mine and nickel mine are already 
in the Arctic. The Prudhoe Bay is in the Arctic. The Russians, 
especially, are--and others are going to develop the Arctic.
    So that perspective is fantasy. The other end of sort of 
what I call the ``drill, baby, drill'' crowd that wants to just 
develop without having rules and conservation in mind and do so 
in a very thoughtful, progressive and strategic way we know 
what that looks like and I would say China, if they could do 
things different in terms of development with more 
environmental and conservation ethic in mind and turn back the 
clock, they would do so.
    So I try and take sort of a balanced approach to say how 
can we smartly develop. This is an amazing opportunity for us. 
The Arctic is pristine and new and here we have a chance--you 
have a chance as a leader to set in place a vision in which to 
develop it but develop it sustainable.
    Mr. Stockman. Yes, but I am saying I want to do role 
reversal here. I am arguing you come into my office and you 
say, I want nothing--I want that not to be developed. That is--
that is not an argument which is--it is a small sliver of 
people.
    That is--a lot of people buy into that argument that 
nothing should be done. It is not a few people. There is a 
large number of people. I mean, we have proposals before 
drilling in ANWR which I think are--could be extremely safe and 
that is not that big of a footprint--let us be honest. It is a 
huge geographic area and the footprint would be very small and 
they are blowing up over that, predicting, you know, every 
caribou is going to die.
    Mr. Borgerson. I don't disagree with you. I would maybe 
package it as part of a broader conservation effort that 
included things like marine protected areas and other places 
that would be protected and investments in infrastructure and 
education and a long list of things that you could do to have 
both development but also do so with an eye to the future. You 
can have both.
    Mr. Holland. And I would add, too, you know, the Arctic is 
a relatively small enclosed sea. So if the United States just 
stops all development that doesn't mean the Russians will stop 
all development as well, and what happens there if they have 
spills--if we are not, you know, partaking in and trying to set 
high standards in the Arctic, if they spill it won't stay in 
its Russian waters.
    Mr. Stockman. But that doesn't--that doesn't disavow my 
point. For instance, in Florida, if you look at the line in the 
Gulf it is a direct line. Right where Florida is they stop 
drilling, and now the Cubans basically--you know, the pool of 
oil doesn't just, like, oh, it is Cuba--we got to stop, and 
they are going to basically stick a straw in there and they are 
going to take Florida oil and they are able to drill out there 
and get it, and so that doesn't stop Cuba from drilling but 
that still--in this country Florida is not drilling and Cuba 
will.
    And I trust you, Cuba is not going to have the same 
environmental concerns or ethics as the Floridians and you are 
going to see the same thing up in the Arctic Circle. We are--I 
predict 10 years from now we are still going to be in the 
situation we are in right here today. Thank you.
    Mr. Rohrabacher. Thank you. I think we should let the two 
witnesses--seeing that we have also--all expressed our opinion 
here why don't we give you 1-minute summaries?
    So if you had something you needed to say to some points 
that we made up here, we will start with Mr. Holland.
    Mr. Holland. Great. Thank you, Chairman Rohrabacher, 
Ranking Member Keating. It has been an honor to be here today.
    Just to sum up, you know, I would say that the national 
security case for why we care about the Arctic is about what 
other countries are doing in the Arctic and what else is going 
on up there.
    We have to--we can't just retreat into a hole and put our 
heads under the sand on anything like this. We have to look at 
what--not only what our opponents are doing but also what our 
allies are doing and we have to support them and we have to 
think about better ways to plan for the future on this.
    So the Arctic requires a lot of planning, a lot of 
foresight and we are not doing it. So we need to do that more.
    Mr. Rohrabacher. Mr. Borgerson?
    Mr. Borgerson. Thank you for holding this hearing and, 
really, my compliments to the committee for thinking about the 
Arctic. America is--needs to think more about the Arctic and, 
as we have heard, is late to this region.
    If I wasn't clear before, I do believe global warming is 
real. But as Congressman Stockman pointed out, there is some 
can be perceived as contradictions in my world view in that I 
would love to see us take a very progressive and thoughtful 
approach where we invest for the future where, as you lay the 
Florida example, every time it rains Miami is under water and 
is--and working hard to pump the water out.
    You can have development in south Florida that maybe then 
takes into account infrastructure to keep Miami from flooding, 
has public-private partnerships that can be with development 
but also adapt to climate change, et cetera. We should take 
that exact same approach to the Arctic.
    So we should maybe leave you with the idea of Manifest 
Destiny. If we were having this hearing 150 years ago, 100 
years ago, thinking about the American West, we would be 
talking about the no canals or no railroads--it is just 
wilderness--it is great in Washington, DC--we will never 
develop America's frontier.
    That is what Alaska is, and so 50 years from now we might 
put our Manifest Destiny hats back on as American visionaries 
and develop it with a conservation ethic and one that we will 
be proud of for our children.
    Mr. Rohrabacher. Well said, and we had some national parks 
dedicated that we are very grateful for that now. Mr. Keating, 
would you like to make a 1-minute or----
    Mr. Keating. Yes.
    Mr. Rohrabacher [continuing]. Whatever--however long.
    Mr. Keating. I will be brief. I view myself as a pragmatist 
and I think the concerns Mr. Stockman brought up, the analogy I 
see from an environmental and growth standpoint is sustainable 
growth or smart growth and that kind of planning where there is 
going to be growth anyways, that is inevitable.
    Let us do it the right way and let us do it in a way that 
complements and minimizes the effect on the environment. That 
is why planning ahead is so important. Also, I would suggest 
too, when we are looking at the areas of the Law of the Sea 
Convention, we can't ignore the fact that right now the other 
members--the other people that have agreed to this--they are 
making those decisions.
    They are using whatever governing authority, whether it is 
United Nations or not, already. The difference with the U.S. is 
we are shut out of that so we have no voice or the lone voice 
in those issues, and along the same lines it is important to be 
a part of that.
    Either you are there as a part of it or you are left out, 
and I learned those things that are being emphasized in this 
hearing as well.
    I hope the fact that we had this publicly there is more 
attention and awareness to this because there has a lot of work 
to do, and in the absence of that other countries will be doing 
things that could potentially conflict with us and we won't 
have a voice in dealing with that, and if we do at some later 
juncture it could be too late to effectuate the kind of change 
we need.
    So I appreciate your testimony.
    Mr. Rohrabacher. I think maybe we timed this just 
perfectly, didn't we? I mean, I think that sounds like we have 
some votes coming up. Let me just say there is no disagreement 
about whether there is climate change.
    The only disagreement is whether mankind is causing it, and 
there are many scientists on both sides of that issue. But we 
are going through a period of climate change and your 
testimony, whether how we believe that it is coming about, both 
of you and the admiral earlier are testifying that we are not 
taking the steps necessary to make sure that we are positioning 
ourselves so that that change that is happening in--up in the 
Arctic will be to the benefit of the people of the United 
States and, yes, the people of the world.
    I would--and I appreciate the admiral being here and I was 
very serious about our doors are open to him. He is now going 
to be part or the head of the Arctic Council of eight nations.
    So we need to make sure that, number one, rather than 
giving any type of authority to an international body that may 
be affected by other countries outside those nations, I think 
it would benefit us better to make sure that we establish a 
very cooperative relationship with those eight nations and--
which that makes more sense to me, and I really appreciate the 
insights both of you have given and the admiral is--you know, I 
can't think of a better guy to have there representing us 
there.
    So with that said, I thank you and this hearing is now 
adjourned.
    [Whereupon, at 4:32 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               

Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               

 Material submitted for the record by the Honorable Steve Stockman, a 
           Representative in Congress from the State of Texas


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
